 OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE




        Pre-Audit Survey of
    Communities in Schools, Inc.
    Grant Number 0 1SPHVA003

   OIG Audit Report Number 02-29
           July 26,2002




            Prepared by:

             CNCS OIG
       1201 New York Avenue
       Washington, DC 20525
                                               Pre-Audit Survey of
                                           Communities in Schools. Inc.
                                           Grant Number 0 1SPHVA003

                                                    Table of Contents



OVERVIEW OF COMMUNITIES IN SCHOOLS. INC ....................................................2

BACKGROUND OF COMMUNITIES IN SCHOOLS. INC.............................................2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................3

RESULTS ............................................................................................................................
                                                                                                                                 4
Office of Inspector General                                                                CORPORATION
1201 New York Avenue, NW
                                                                                           FOR N A T I O N A L
Washington, DC 20525




   July 26,2002

   Peg Rosenberry, Director, Office of Grants Management
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

   We performed a pre-audit survey of Communities in Schools, Inc. (CIS) Grant Number
   0 1SPHVA003. The primary purpose of this survey was to provide a preliminary
   assessment o f

       The grant award and terms;
       Findings from the most recent A-133 audit;
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional audit procedures to be
   performed at the Grantee.

   Overview of Communities in Schools, Inc.

   CIS is a community-builder, delivering resources for children who need extra help. CIS
   partners with families, schools and community leaders to create a support system for
   students, and works in partnership with public schools to bring services to one million
   children each year.

   Background

   The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
   the National and Community Service Act of 1990, established the Corporation for
   National and Community Service.

   The Corporation, pursuant to the authority of the Act, awards grants and cooperative
   agreements to State Commissions, nonprofit entities, tribes and territories to assist in the
   creation of full and part time national and community service programs. Through these
   grantees, members perform service to meet the educational, human, environmental, and
   public safety needs throughout the nation, especially addressing those needs related to
   poverty. In return for this service, eligible members receive a stipend, accidental death
   and dismemberment insurance, personal liability insurance and automobile insurance,
   free meals at host institutions and physical examinations.
Communities in Schools was founded in 1977 and is the nation's leading community-
based organization helping children succeed in school and prepare for life. CIS has
programs and activities in 34 states, which include partnering with families, schools and
community leaders to create a support system for students. CIS fulfills its goals by
providing the following: Mentors, Tutors, and Parental Involvement Programs, After-
School and Extended-Hours Programs, Mental Health Counseling, Family Strengthening
Initiative, Drug Alcohol Education, Technology Training for the Future, Career
Counseling, College Preparation and Scholarship opportunities, Community Service
Opportunities, and Junior ROTC Programs.

Objectives, Scope, and Methodology

The scope of this engagement was to assess the use of grant funds, site visit information,
as well as systems and procedures in place at the Corporation's headquarters for
monitoring Grantee's fiscal activity. The survey's primary purpose was to preliminarily
assess:

   The amount, term and grant provisions;
   The results of A- 133 audits;
   Results of CNCS site visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

    Reviewing the grant award, its provisions, the detailed grant proposal and budget;

    Reviewing OMB Circular A-133 reports and;

    Obtaining information from CNCS site visits and from discussion with CNCS Grants
    Management Office.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not perform, an audit of any financial statements and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.
Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of grant project period December 1,2000 through May 3 1,2002. The
decision to audit is based on the following:

       Results of the February 2002 site visit and the resulting recommendations to the
       Grantee.

       Findings reported in the FY 2000 A-133 Audit.

       The award of $4,989,000 is considered material and the Grantee received
       additional funding in the Corporation's appropriations for Fiscal Year 2002.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.




~ e r rBathen
        j
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.



Copy to:

Wendy Zenker, COO
Gary Kowalczyk, Director, Planning & Program Integration
Dana Rodgers, Program Officer
